CERTIFICATE OF SERVICE
NO. TBD
Technology Properties Ltd. LLC et al.
Petitioner(s)
v.
Huawei Tech. Co., Ltd. et al.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury: That I am over the age of 18
years and am not a party to this action. I am an employee of the Supreme Court Press, the preparer of
the document, with mailing address at 1089 Commonwealth Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the Technology
Properties Ltd. LLC Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses::
Mark Fowler
DLA Piper LLP
2000 University Avenue
East Palo Alto, CA 94303
(650) 853-2000
mark.fowler@dlapiper.com
Counsel for Samsung Electronics Co., Ltd and
Samsung Electronics America, Inc

Joseph B. Warden
Fish & Richardson P.C.
222 Delaware Avenue, 17th Floor
Wilmington, DE 19801
(302) 652-5070
warden@fr.com
Counsel for LG Electronics, Inc. and
LG Electronics U.S.A., Inc.

Stephen R. Smith
Cooley LLP
1299 Pennsylvania Avenue, NW
Suite 700
Washington, DC 20004
(703) 456-8035
Stephen.smith@cooley.com
Counsel for Nintendo of America Inc. and
Nintendo Co., Ltd.

Charles M. McMahon
McDermott Will & Emery LLP
444 West Lake Street, Suite 4000
Chicago, IL 60606
(312) 984-7641
cmcmahon@mwe.com
Counsel for ZTE Corporation and ZTE (USA) Inc.

Timothy C. Bickham
Steptoe & Johnson LLP
1330 Connecticut Avenue, NW
Washington, DC 20036
(202) 429-5517
tbickham@steptoe.com
Counsel for Huawei Technologies Co., Ltd,
Futurewei Technologies, Inc., Huawei Device Co.,
Ltd, Huawei Device USA Inc., and
Huawei Technologies USA, Inc

Lucas DeDeus
September 6, 2019
SCP Tracking: De Mory-701 El Camino Real-Cover White

